HHS/OIG, Audit -"Audit of California's Medicaid Selective Provider Contracting Program, July 1, 1998 Through June 30, 2002,"(A-09-02-00082)
Department of Health
and Human Services
Office of Inspector General -- AUDIT
"Audit of California's Medicaid Selective Provider Contracting Program, July 1, 1998 Through June 30, 2002," (A-09-02-00082)
May 21, 2004
Complete
Text of Report is available in PDF format (1.11 mb). Copies can also be obtained by contacting the Office of Public
Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
In California, a portion of the Medicaid program was operated under a Federal waiver known as the Selective
Provider Contracting Program (program).  The program allowed  the State to contract with selected hospitals to
provide inpatient services to Medicaid patients at negotiated rates of reimbursement.  The negotiated rates were typically
less than hospitals would have received under traditional Medicaid rules.  The State used these lower rates to project
savings under the waiver.  Based on the savings projected, the State made supplemental payments to hospitals requesting
additional funding.  For our audit period, July 1, 1998 through June 30, 2002, the State projected program savings
of $7 billion (direct savings of $4.8 billion and indirect savings of $2.2 billion) and made supplemental payments of $6.2
billion.
Our audit objectives were to evaluate the reasonableness of the methodologies the State used to project
program savings and the adequacy of the State's support documentation for its savings projections.  We found that
the State's projection methodologies contained errors.  As a result, the State's direct and indirect savings were
overstated.  In addition, the State did not maintain adequate documentation to support its savings projections.  Because
the savings projections were inaccurate and inadequately documented, the State could not demonstrate the program's cost-effectiveness
as required by the waiver.  We recommended that the State:  (1) develop appropriate projection methodologies
to address the concerns raised in this report; (2) recalculate projected program savings for the 4-year period ended June
30, 2002; (3) determine whether supplemental payments exceeded recalculated savings and refund the appropriate Federal
share; and (4) ensure that adequate documentation is maintained to support savings projections for the 4-year period ended
June 30, 2002 and all subsequent period of the waiver.